                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A07070036                                                             11           Page 1 of 1




                  NSF OIG conducted a proactive review of CAREER proposals for plagiarism. The review
          found apparently plagiarized material in an NSF proposal1the subject2submitted. OIG's subsequent
          analysis of three other NSF proposals3 the subject submitted found approximately 58 additional lines
          of text, 1 figure and 1 source allegedly plagiarized from 10 sources.

                  OIG's investigation determined the subject plagiarized in the originally reviewed proposal4
          approximately 69 unique lines, 2 unique equations, and 13 embedded references from 4 sources.
          The Subject's responses during the investigation sufficiently addressed what we had initially
          identified as allegedly copied material in the other three proposals.

                 OIG determined the subject committed research misconduct in one proposal by
          knowingly copying material without attribution or offset, ac act that is a significant departure
          from accepted practices.

                  OIG recommended that NSF: 1) make a finding of research misconduct; 2) send the
          Subject a letter of reprimand; 3) require certifications for a period of 1 year; 4) require assurances
          for a period of 1 year; and 5) require completion of an ethics course. The Deputy Director
          accepted our recommendations.

                  This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




NS17 OTG Form 2 (,I 1/02)
                                   NATIONALSCIENCEFOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                          OCT 0 6,2008

     OFFICE OF THE
    DEPUM DIRECTOR




 CERTIFIED MAIL --RETURNRECEIPT REQUESTED




        Re:     Notice of Research Mkconduct Determination

 Dear ~ r . m        .   ,                     .   .




         In 2006. vou submitted a ~rovosalto the National Science Foundation ("NSF") entitled.


 Investigative Report prepared by NSF's Office of Inspector General("OIG"), this proposal
 contained plagiarized text, equations, and references.


-ResearchUnder
          Misconduct .and Proposed Sanctions
               NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
 plagiarism in proposing or performing research funded by NSF ..." 45 CFR $689.1 (a). NSF
 defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
 without giving appropriate credit." 45 CFR $ 689.1(a)(3). A finding of research misconduct
 requires that:

        (1) There be a significant departure fiom accepted practices of the relevant research
            community; and
        (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR $ 689.2(c).

        Your proposal contained verbatim and paraphrased text, equations, and references fiom
several source documents. By submitting a proposal to NSF that copies the ideas or words of
                                                                                                          b



                                                                                                              \




                                                                                                Page 2
another without adequate attribution, as described in the OIG Investigative Report, you
misrepresented someone else's work as your own. In addition, you failed to properly
acknowledge or credit the authors of the source documents in your proposals. Your conduct
unquestionably constitutes plagiarism. I therefore conclude that your actions meet the definition
of "research rnisconduct'bet forth in NSF7sregulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure fiom
accepted practices of the relevant research community. I am, therefore, issuing a finding of ,
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
taken in response to a h d i n g ofrnisconduct. 45 CFR $689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
requiring that an institution or individual obtain special prior approval of particular activities fiom
NSF; and requiring that an institutional representative certifL as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 5689.3(a)( 1). Group I1 actions
include award suspension or restrictions on designated activities or expenditures; requiring special
reviews of requests for funding; and requiring correction to the research record. 45 CFR
$689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
participation in NSF programs. 45 CFR 5 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness ofthe misconduct, our determination that it was knowing, as well as
our determination that it was an isolated event. I have also considered the fact that your
misconduct did not have a significant impact on the research record, your willingness to accept
responsibility for your actions, and the contrition that you demonstrated during the course of the
investigative process. I have also considered other relevant circumstances. 45 CFR 5 689.3 (b).

        In light of the foregoing, I am requiring that, fiom the date of this letter until October 1,
2009, you certifjr that any proposal you submit as a principal investigator or co-principal
investigator does not contain plagiarized, falsified, or fabricated material. In addition, for this
same time period, your employer must provide written assurance that any proposal you submit
does not contain any plagiarized, falsified or fabricated information. Lastly, by July 1, 2009, you
must certifjr that you have attended a course on research ethics, and provide a copy of the syllabus
fiom that course. Such certifications and assurances should be submitted in writing to the Office
of Inspector General, 4201 Wilson Boulevard, Arlington, Virginia 22230.
                                                                                             Page 3
Procedures Governing Av~eals
         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR 8689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel at (703)
292-8060.



                                                     Sincerely,



                                                     Kathie L. Olsen
                                                     Deputy Director


Enclosures
- Investigative Report
- 45 C.F.R. Part 689
       National Science Foundation
         Office of Inspector General




                        Confidential
                    lnvestrgatlon Keport
                  Case Number A07070036
                                   30 May 2008


    This Confidential Investigation Report is the property,oFthe YSE OIG and may be disclosed'outside
,      NSF only by OIG under the Freedom of Information kdPrivacy Acts, 5 U.S.C. $5 552,552a. . ,
                                               ~   9       . ,     ,.                       1


                                                                                  NSF OIG Form 22b ( I 1/06)
                                   Executive Summarv

Allegation:      Plagiarism of material from published papers and web documents within four
                 unfunded NSF proposals.

OIG.
Inquiry:         OIG identified a total of 127 unique lines,. 2 equations, 1 figure, and 14
                 references in 4 proposals that the Subject allegedly plagiarized from 10
                 sources.

OIG
Investigation:   OIG determined that the subject plagiarized in one proposal approximately 69
                 unique lines, 2 unique equations, and 13 embedded references from 4 of those
                 10 sources. The subject stated and OIG confirmed that she had permission to
                 use text from 4 other sources. The amount of copied text from the remaining
                 2 sources was de minimis.

OIG                   \



Assessment:      OIG determined the following:
                         The Act: The subject copied material without attribution or offset.
                         Intent: The subject acted knowingly.
                         Standard of Proof: A preponderance of evidence supports the
                         conclusion that the subject knowingly plagiarized material.
                         Significant Departure: The subject's plagiarism represents a
                         significant departure from accepted practices.
                         Research Misconduct is therefore established.
                         Pattern: Pattern was not established.

OIG Recommends:
                          Make a finding of research misconduct against the subject.
                          Send the subject a letter of reprimand.
                          Require certifications from the subject for a period of 1 year on all
                          documents submitted to NSF.
                          Require assurances on all documents submitted by the subject to
                          NSF for a period of 1 year.
                          Require completion of an ethics course and provide documentation
                          of its completion to OIG.
        The National Science Foundation (NSF) Office of Inspector General (OIG) conducted a
proactive review of CAREER proposals for plagiarism. This review found a significant amount
of apparently plagiarized material in an NSF proposal (Proposal 1)' the subject2 submitted.
OIG's analysis indicated that approximately 69 lines and 13 embedded references were copied
fiom 4 source^.^ The majority of the alleged plagiarism occurred in the Research Objective
section (47 lines), with the remaining plagiarism located in the ScientGc Background section (22
lines).

        OIG's subsequent analysis of three other NSF proposals (Proposals 2-414 the subject
submitted found approximately 58 additional lines of text, 1 figure and 1 source allegedly
plagiarized from 10 source^.^ The extent of the copied text is summarized in the table below.




       J                                                                         5                   5
     Total
                       69                 38                  15                 5                 127
     lines
     Other        2 equations          1 figure                                               2 equations
                 13 references       1 reference6                                                1 figure
                                                                                             14 references

      OIG asked the subject to respond to the allegation.7 In her response,8 the subject
acknowledged that, "After I read the NSF misconduct regulation, I realized that I did violate the




 During the investigation, OIG identified one additional embedded reference that was allegedly plagiarized from
Source G; however, as this report will indicate, Source G was later removed from the analysis.
'Tab 6 .
 Tab 7.
proposal writing rules, which I did not realize when I wote the proposal."g Specifically, she
acknowledged that she included wording from sources A through E, but said that she did not
intend to "use other people's words without giving them proper credit.'"' She explained that she
used the source documents because, as a non-native speaker of English, she was not confident
with her own English skills.'' She also stated that she was unaware that proposals required the
same citation standards as scientific publications. Lastly, the subject stated that she did not have
time to check citations in Proposal 1 because she was rushing to meet the deadline.

        The Subject denied having plagiarized from Sources F, G, H, and J, instead claiming that
she had permission from her Ph.D. advisor ( ~ d v i s o r ) , who
                                                              ' ~ had authored those source texts, to
use the material.

        Lastly, the subject said she had resigned her academic position prior to and unrelated to
this inquiry, and that she had no pending NSF proposals.'3

        The subject's response did not dispel the allegations. Firstly, she admitted to having
plagiarized from five sources. In addition, she provided no evidence indicating she had
permission from the Advisor to use his work. She also made no mention of the alleged
plagiarism from Source I. OIG therefore concluded that there was sufficient evidence to proceed
to investigation.


                                    Contact with the University

        OIG contacted the institution14 from which the subject submitted her proposals and asked
the Assistant Vice President for ~esearch"whether the institution would accept an investigation
referral. The university declined to accept the referral because the subject had already resigned
and had chosen not to continue in academia. Given the unique circumstances of this situation,
OIG determined that the most expeditious action would be to conduct its own independent
investigation.


                                        OIG Investi~ation

     OIG sent a letter to the subject stating it had begun an investigationL6and soliciting her
comments.

       In her response,17the subject again indicated that she did not take material from sources
F, G, H, and J, sources authored by the Adirisor. Instead, she claimed that she used material

     Tab 7, page 1,73, lines 1-3.
'O    Tab 7, page l,18, line I .




l6   Tab 9.
from documents her laboratory group authored, which she provided to our office.18 The subject
contended that these materials were used as sources for her proposals and for the Advisor's
documents.

        OIG reviewed these documents. Because these were undated, it was impossible to
establish the sequence in which the documents were originated. OIG attempted to arrange a
phone interview with the subject in order to ask questions about the documents she had provided,
and requested the subject's contact inf~rmation.'~The Subject said she preferred e-mail
correspondence since she was traveling extensively.20

       Unable to communicate with the subject by phone, OIG sent a new letter asking her to
                                                                  ,
address the unresolved issues.21The Subject provided no response.

       OIG contacted the ~ d v i s o ?to~ determine whether he had given the subject permission to
use the materials as her own. In his reply,23he stated that he "concluded that the research [the
subject] proposes is entirely related to her PhD work and does not inappropriately borrow or
represents as hers any of [his] research."24 He added that he "would like to emphasize that it is
extremely difficult to separate the contributions of an advisor and hisher advise (sic) during a
course of 5-6 years joint activities that includes many joint publications and presentations - and
therefore at times unintentional cross contamination can be hardly avoided."25

       The subject's written statements, coupled with that of the Advisor, established the
following facts:

               1 The subject acknowledged having plagiarized materials fiom sources A, ByC, D,
                 and E;
               2 The Advisor stated that she was entitled to use the materials in sources F, G, H,
                 and J; and
               3 The subject did not address the issue of plagiarism from source I.

        Given these conclusions, OIG determined that Proposal 4 did not contain improperly
plagiarized material since all of the alleged plagiarism in that proposal was from source J.
Proposal 4 was thus eliminated from further analysis.

        Likewise, most of the alleged plagiarism in Proposals 2 and 3 was from sources F-H,
meaning Proposals 2 and 3 contained only four lines of plagiarized text. The amount of
plagiarized text in these two proposals is thus deemed to be de minimis. As such, Proposals 2
and 3 were also removed from further review.

17
     Tab 10.
18
     Tab 10, pp. 2-5.
" ~ a b11.
     Tab 12.
''22 Tab 13.
     Tab 14.
23
     Tab 15.
l4 Tab 15, page 1,73, lines 2-3.
''   Tab 15, page I , 74, lines 1-4.
        The following analysis is thus limited to the plagiarized text in Proposal 1, as illustrated
in the following table:

      Source              Copied Lines         Copied Equations        Embedded References
          A                    27                     2                        2
          B                    4
          C                   12                                                  4
          D                   26                                                  7
       Total                  69                       2                          13


                                            OIG Assessment

      A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of evidence.26

                                           The Acts
       The subject plagiarized 69 lines of text, 13 embedded references and two equations in
Proposal 1. The plagiarized material was located not only in the Scientzjk Background section,
but also in the actual Research Objective section. The subject clearly acknowledged
appropriating material fiom 4 source documents without proper citation.

       OIG concludes that failure to cite such an extensive amount of material, thereby
presenting it as one's own, represents a significant departure from common research practices.

                                               Intent
       In this case, the subject acknowledged that she did copy the materials without attribution,
and she did so in several instances, indicating that her actions-were knowing.

                                     Standard o f Proof
       The subject's own admission regarding the plagiarism constitutes a preponderance of the
evidence.

        OIG concludes, by a preponderance of the evidence, that the subject knowingly
plagiarized, thereby committing an act of research m i s c ~ n d u c t . ~ ~


                                   OIG Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

*' 45 C.F.R. §689.2(c).
*' 45 C.F.R. part 689.
           (1) How serious the misconduct was. (2) The degree to which the misconduct was
           knowing, intentional, or reckless. (3) Whether it was an isolated event or part of a
           pattern. (4) Whether it had a significant impact on the research record, research subjects,
           other researchers, institutions or the public welfare; and (5) other relevant
           circurn~tances.~~

                                             Seriousness
        The subject's actions are a violation of NSF's scholarly expectations as outlined in NSF's
                           . ~ ~extent of the plagiarism - 69 lines, 2 equations, and 13 embedded
Grant Proposal ~ u i d e The
references - is a significant breach of professional standard^.^' Secondly, the plagiarism
occurred not only in the Background section of the proposal, but occurred primarily in the
Research Objective section. However, the plagiarized text did not contain significant portions of
material that involved critical thinking. Lastly, the subject was clearly aware that she had
plagiarized material from the source texts.

                             Degree to which the Action Was Knowin
        The subject received her Ph.D. in the United states3' and h2published at least 9 journal
articles.32 Therefore, she should have been familiar with accepted professional research practices
regarding citations. In submitting her NSF proposal, the s~bject'clearl~knew (and admitted) that
she had included text in her proposal without attribution: "I indeed used lots of sentences from
A, B, C, D without much changes (sic) in my career proposal, and I did not give proper credit in
the citation."33 The Subject therefore knew both what she was doing - plagiarizing material -
and the impropriety of her actions.

                                             Pattern
        OIG's investigation was limited in scope and only evaluated four proposals submitted by
the subject over a one year period. Given that the plagiarism was limited to one proposal, a
pattern was not established.


                                                Recommendation

           Based on the evidence, OIG recommends that NSF:

                     Send the subject a letter of re rimand informing her that NSF has made a
                     finding of research misconduct. 3 9


     45 C.F.R. $689.3@).




33
   Tab 7, page 1,74, lines 1-2; '
                                                              . .
34
   A letter of reprimand is a Group I action (45 C.F.R. $689.3(a)(l)(i)).
CONFIDENTIAL                                                                                CONFIDENTIAL

                      Require the subject to certify to the Associate Inspector General for
                      Investigations (AIGI) that proposals or reports she submits to NSF for a period
                      of 1 year do not contain plagiarized, falsified, or fabricated mate~ial.~'

                      Require that the subject submit assurances by a responsible official of her
                      employer to the AIGI that any proposals or reports submitted by the subject to
                      the NSF for a period of 1 year do not contain plagiarized, falsified, or fabricated
                      material.36

                       Require that the subject complete an ethics course and provide documentation
                       of its completion to the AIGI.




" Certification by an individual is equivalent to a Group I action (45 C.F.R. $689.3(a)).
36
     Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(I)(iii)).
